No.

19- 323
IN THE

erffile Wan°5
- 1 :a: KC=KeaCSit

CHARLES V. SCHNEIDER,
Petitioner
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Eighth Circuit
PETITION FOR REHEARING and
COURT TO REQUEST RESPONSE BY APPELLEE
For Respondent:
Counsel of Record
Randolph L. Hutter
Attorney, Tax Division
Department of Justice
Post Office Box 502
Washington, D.C. 20044
(202) 514-2647

Appellant:
Charles V. Schneider
14000 Floyd St. Apt 3202
Overland Park, KS 66223
cv_schneider@yahoo.com
(913) 526-8550
in propria persona

RECEIVED
NOV 111 2019

CLERK
rufpiRCEEMICTO-URT U.S.

-1PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44, petitioner
respectfully petitions this Court for rehearing of its
October 15, 2019, order denying the petition for a writ
of certiorari in this case. In the interest of justice and
in accordance with FRAP 40(a)(3), appellant pleas for
this court to REQUEST AN ANSWER FROM
APPELLEE.
REASONS FOR VACATING THIS COURTS
ORDER OF OCTOBER 15 2019 AND GRANTING
THE PETITION FOR CERTIORARI
The "Questions Presented" in this case are too
important to leave unsettled since they involve major,
profound, nationwide importance concerning conflicts
with relevant decisions of this High Court. These
questions remain unanswered and unsettled. There is
no Supreme Court precedent to validate the specious
claims of myriad inferior courts. Most notably, is the
fact that the Supreme Court has never overturned the
Brushaber decision.
INTERVENING CIRCUMSTANCE
Throughout the process of this case there has been
no indication that anything offered by appellant has
ever been considered. Upon reading and pondering
the William & Mary Law Review cited and excerpted
in the original petition, it has become increasingly
apparent that the denial of certiorari has been based
upon the recommendation of a self-serving, neophyte
clerk vice a judicial review and evaluation by one or
more associate justices.

-2GROUNDS NOT PREVIOUSLY PRESENTED
Continued avoidance and refusal to address and
rule upon the questions here presented gives
testimony to the growing public awareness of the
corruption throughout our government.
Section D-7 of the IRS' online publication cited in
the original petition remains unchanged and still
reads:
"Contention: The Sixteenth Amendment
does not authorize a direct non-apportioned
federal income tax on United States citizens "
The IRS and the judiciary may desire to ignore
reality and promote this gross misrepresentation, but it is an irrefutable fact
The following citations of "relevant case law" in the
previously mentioned document are listed in the
original petition with additional grounds presented
here:
Young v. Commissioner — [cannot be found
online as cite& however,] the statement:
"rejecting as `meritless' and 'frivolous' Young's
arguments that the income tax is an
unconstitutional direct tax . . ." is valid. The
income tax is not an unconstitutional direct tax
— it is indirect (excise, duty or impost) and,
therefore, cannot be imposed directly without
apportionment. ANY direct, non-apportioned
tax is unconstitutional — See Pollack,
Brusbaber, etc. in the original petition.

-3Taliaferro v. Freemtran [sic] — [the
Sixteenth Amendment does authorize the
imposition of excise taxes and income taxes],
but the court falsely states: "[for nearly a
century], the Supreme Court has recognized
that the sixteenth amendment authorizes a
direct non apportionedtax ." [citing Collins, infra]
United States v. Collins — [ruled in direct
conflict with the Supreme Court by stating that
the defendant's argument was] "devoid of any

arguable basis in law"
In re Becraft — [rejected the taxpayer's
position based solely upon rulings of the
Supreme Court and cited, as precedent, the
absolute lie stated in Parker, see original

petition]
Lovell v. United States — "Plaintiffs also
contend that the Constitution prohibits
imposition of a direct tax without
apportionment.
[falsely stating] They are
wrong; it does not [equivocally citing] U.S.
Const amend. XVI; [and
deceitfully
perpetuatingthe obvious falsehood of] Parker "
United States v. Jones — [purposely
inexplicit by obviously omitting the word
"direct'.]
Broughton v. United States — [again, the
court surreptitiously avoided the word "direct"
and purposefully chose to omit the fact that the
tax is actually an "excise" and can only be
imposed as such.]

-4CONCLUSION
Petitioner has been continually denied the
opportunity for his "day in court" — being summarily
dismissed and/or prejudged ad hominem— and has,
thereby, been denied due process in preventing oral
argument and his right to confront his accuser in
cross-examination.
A decision or judgment on the merits (matters of law
and legislative facts) of petitioner's case has never been
rendered by a judge, panel, or court after a full
presentation of evidence and oral argument.
Any court ruling that the 16th Amendment
authorizes a non-apportioned direct tax on anything
commits egregious en-or
This court effectively nullifies itself if it does not
rule on the questions presented and, thereby, directly
undermines its own supremacy — it effectively
condones the blatant disregard of its supervisory
power by inferior courts that choose to arrogantly and
fraudulently ignore its decisions.
Should this court deny the petition for a writ of
certiorari, it demonstrates that it condones the
misapplication of statutory law and the disregard of
rulings of the Supreme Court by inferior courts, et
alia; and further, that it accepts and validates the
false and specious claims proffered by the IRS in its
online publication, THE TRUTH ABOUT . . ., supra.

-5WHEREAS, obvious malfeasance and fraud upon
the court have been unambiguously documented in
the pleadings of this case.
WHEREAS, if respondent chooses not to file an
answer, it is his admission that he finds no error in
petitioner's petition for a writ of certiorari.
WHEREAS, in the interest of clarity and
disclosure (pursuant to Rule 15.1) this court must
order the appellee to file a brief in opposition —
allowing further judicial discourse and transparency
resulting from consideration of petitioner's pleadings.
WHEREAS, there is obviously unsettled law as
inferior courts consistently rule in direct contradiction
to rulings of this high court.
WHEREAS, petitioner does not oppose, but rather
demands, compliance with federal tax laws by all
parties AND the court.
WHEREAS, the exercise of this high court's
supervisory power is too long overdue and petitioner
prays that this court objectively considers, anew, the
pleadings of petitioner and the grounds presented in the
original petition for certiorari.
WHEREFORE, after due consideration of the
foregoing, the examination of the questions presented,
and the pleading in the original petition, with no

-6deference to conflicting rulings of inferior courts
and/or unlawful, bogus claims (mere presumptions) of
government agencies, this honorable court, in the
interest of doing what is the lawful, right, and just
thing to do, must grant this petition for its writ of
certiorari; vacate the ruling of the Court of Appeals for
the Eighth Circuit; and remand this case to the lower
court of first instance for reconsideration.

Respectfully submitted,

November 08 2019

/s/ Charles V. Schneider
2001 N.W. 82nd Court
Kansas City, MO 64151
(913) 526.8550
cv_schneider@yahoo.com
in propria persona

-7CERTIFICATE OF PETITIONER
Petitioner genuinely believes this petition for
rehearing to be meritorious and hereby certifies that
this petition is presented in good faith and not for any
purpose of delay.
In fact: upon the granting of this petition,
petitioner's brief will establish (perhaps too
embarrassingly so) irrefutable proof of judicial fraud
and malfeasance throughout the judiciary.

November 08 2019

/s/ Charles V. Schneider
in propria persona

